                         Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices                         61353

DEPARTMENT OF HEALTH AND                       SUMMARY:    The Food and Drug               be in effect until the dates of expiration
HUMAN SERVICES                                 Administration (FDA) is announcing the      listed below. This notice is issued under
                                               renewal of certain FDA advisory             the Federal Advisory Committee Act of
Food and Drug Administration                   committees by the Commissioner of           October 6, 1972 (Public Law 92–463 (5
                                               Food and Drugs (the Commissioner).          U.S.C. app. 2)).
Advisory Committee; Renewals                   The Commissioner has determined that        DATES: Authority for these committees
AGENCY:   Food and Drug Administration,        it is in the public interest to renew the   will expire on the dates indicated below
HHS.                                           charters of the committees listed below     unless the Commissioner formally
                                               for an additional 2 years beyond charter    determines that renewal is in the public
ACTION:   Notice.
                                               expiration date. The new charters will      interest.



                           Name of committee                                                 Date of expiration

Technical Electronic Product Radiation Safety Standards Committee   December 24, 2000
Antiviral Drugs Advisory Committee                                  February 15, 2001
National Mammography Quality Assurance Advisory Committee           July 6, 2001
Nonprescription Drugs Advisory Committee                            August 27, 2001



FOR FURTHER INFORMATION CONTACT:                 Location: Gaithersburg Marriott           Time allotted for each presentation may
Donna M. Combs, Committee                      Washingtonian Center, 9751                  be limited. Those desiring to make
Management Office (HFA–306), Food              Washingtonian Blvd., Gaithersburg, MD.      formal oral presentations should notify
and Drug Administration, 5600 Fishers            Contact Person: Veronica J. Calvin,       the contact person before November 24,
Lane, Rockville, MD 20857, 301–827–            Center for Devices and Radiological         1999, and submit a brief statement of
4820.                                          Health (HFZ–440), Food and Drug             the general nature of the evidence or
  Dated: November 3, 1999.
                                               Administration, 2098 Gaither Rd.,           arguments they wish to present, the
                                               Rockville, MD 20850, 301–594–1243, or       names and addresses of proposed
Linda A. Suydam,
                                               FDA Advisory Committee Information          participants, and an indication of the
Senior Associate Commissioner.                 Line, 1–800–741–8138 (301–443–0572          approximate time requested to make
[FR Doc. 99–29353 Filed 11–9–99; 8:45 am]      in the Washington, DC area), code           their presentation.
BILLING CODE 4160–01–F                         12514. Please call the Information Line       Closed Committee Deliberations: On
                                               for up-to-date information on this          December 7, 1999, from 8:30 a.m. to 9
                                               meeting.                                    a.m., the meeting will be closed to
DEPARTMENT OF HEALTH AND                         Agenda: On December 6, 1999, the          permit discussion and review of trade
HUMAN SERVICES                                 committee will discuss, make                secret and/or confidential commercial
                                               recommendations, and vote on a              information (5 U.S.C. 552b(c)(4))
Food and Drug Administration                   premarket approval application for a        relating to these products.
Clinical Chemistry and Clinical                device indicated for frequent, automatic,     Notice of this meeting is given under
                                               and noninvasive monitoring of glucose       the Federal Advisory Committee Act (5
Toxicology Devices Panel of the
                                               levels in adults with diabetes. On          U.S.C. app. 2).
Medical Devices Advisory Committee;
                                               December 7, 1999, the committee will          Dated: November 2, 1999.
Notice of Meeting
                                               discuss and make recommendations on         Linda A. Suydam,
AGENCY:   Food and Drug Administration,        general issues regarding over-the-
                                                                                           Senior Associate Commissioner.
HHS.                                           counter devices for measurement of
                                               vaginal pH. The discussion will include     [FR Doc. 99–29352 Filed 11–9–99; 8:45 am]
ACTION:   Notice.                              appropriate claims, study designs to        BILLING CODE 4160–01–F

                                               support claims, performance
  This notice announces a forthcoming          expectations, and labeling.
                                                 Procedure: On December 6, 1999,           DEPARTMENT OF HEALTH AND
meeting of a public advisory committee
                                               from 9 a.m. to 6:30 p.m., and on            HUMAN SERVICES
of the Food and Drug Administration
(FDA). At least one portion of the             December 7, 1999, from 9 a.m. to 3 p.m.,    Office of Inspector General
meeting will be closed to the public.          the meeting is open to the public.
  Name of Committee: Clinical                  Interested persons may present data,        Health Care Financing Administration
Chemistry and Clinical Toxicology              information, or views, orally or in
                                               writing, on issues pending before the       OIG/HCFA Special Advisory Bulletin on
Devices Panel of the Medical Devices                                                       the Patient Anti-Dumping Statute
Advisory Committee.                            committee. Written submissions may be
                                               made to the contact person by               AGENCY: Office of Inspector General
  General Function of the Committee:           November 24, 1999. On December 6,
To provide advice and                                                                      (OIG) and Health Care Financing
                                               1999, oral presentations from the public    Administration (HCFA), HHS.
recommendations to the agency on               will be scheduled between
FDA’s regulatory issues as provided in                                                     ACTION: Notice.
                                               approximately 9:15 a.m. and 9:45 a.m.
the Federal Food, Drug, and Cosmetic           and between approximately 5:15 p.m.         SUMMARY:    This Federal Register notice,
Act.                                           and 5:45 p.m. On December 7, 1999,          developed jointly by the OIG and HCFA,
  Date and Time: The meeting will be           oral presentations from the public will     sets forth the Special Advisory Bulletin
held on December 6, 1999, 9 a.m. to 6:30       be scheduled between approximately          addressing requirements of the patient
p.m., and December 7, 1999, 8:30 a.m.          9:30 a.m. and 10 a.m. and between           anti-dumping statute and the obligations
to 3 p.m.                                      approximately 2 p.m. and 2:30 p.m.          of hospitals to medically screen all
61354              Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices

patients seeking emergency services and     policies set forth in the HCFA State          impedes the goals of EMTALA, or that
provide stabilizing medical treatment as    Operations Manual on Provider                 it advances publicly beneficial goals of
necessary to all patients, including        Certification (Transmittal No. 2, May         managed care and other innovations in
enrollees of managed care plans, whose      1998) which provides guidelines and           health care delivery, such as
conditions warrant it. In developing this   investigative procedures for reviewing        coordination of services and health
Special Advisory Bulletin, our goal is to   the responsibilities of Medicare              promotion. If we were to declare that all
provide clear and meaningful advice         participating hospitals. Hospitals should     dual staffing arrangements violate
with regard to the application of the       also be aware that regulations at 42 CFR      EMTALA, we might unnecessarily
anti-dumping provisions, and to ensure      part 422 implementing section 1852(d)         prevent the development of health care
greater public awareness of hospitals’      of the Act govern Medicare+Choice             delivery practices which could improve
obligations in providing emergency          organizations’ obligations to pay for         access to health care.
medical services to those individuals       emergency services without regard to             Thus, we have concluded that while
insured by managed care plans.              prior authorization or the treating           dual staffing raises serious issues, it
FOR FURTHER INFORMATION CONTACT:            hospital’s relationship with the plan.        would not necessarily constitute a per
Robin Schneider, Office of Counsel to                                                     se violation of the anti-dumping statute.
                                            Summary of Major Issues Raised                However, certain practices or
the Inspector General, (202) 619–1306.
                                               The major issues raised by the over        occurrences that could arise in a dually
SUPPLEMENTARY INFORMATION:                  150 commenters concerned dual                 staffed emergency department or service
Background                                  staffing, prior authorization, the use of     could violate EMTALA. Examples of
                                            financial responsibility forms and            these potential violations are described
   In an effort to identify and eliminate   advanced beneficiary notifications, and       below.
fraud, waste and abuse in the               the handling of patient inquiries
Department’s health care programs, the      regarding the obligation to pay for           2. Prior Authorization
OIG periodically develops and issues        emergency services. Additional                   While supportive of the ‘‘no prior
Special Fraud Alerts and, with the          comments were also received                   authorization’’ best practice outlined in
cooperation of HCFA, Advisory               concerning voluntary withdrawal and           the proposed bulletin, many
Bulletins to alert health care providers    the reporting of alleged patient dumping      commenters argued for expanding the
and program beneficiaries about             violations.                                   reach of this approach beyond the
potential problems. On December 7,                                                        current authority of HCFA and the OIG
1998, the OIG and HCFA jointly              1. Dual Staffing                              as well as the patient anti-dumping
published a Federal Register notice (63        The majority of comments expressed         statute, by making the policy applicable
FR 67486) seeking input and comments        concern about the impact of dual              not only to hospitals but also to health
from interested parties on a proposed       staffing in hospital emergency                plans. Several commenters expressed
bulletin designed to address the            departments (EDs), and many expressed         concern that hospitals are being forced
principal requirements of the patient       the view that dual staffing would lead        to accept the contracts offered by
anti-dumping statute—known as the           to disparate standards in the ED by           managed care plans, although they
Emergency Medical Treatment and             fostering ‘‘separate but unequal              realize that if they comply with the
Labor Act (EMTALA)—(section 1867 of         treatment.’’ Possible disparate standards     prior authorization requirements in the
the Social Security Act (the Act)) and to   cited dealt with physician credentialing,     contract, the hospital could be in
discuss how the requirements of that        drug formularies, equal access and use        violation of the patient anti-dumping
statutory provision apply to individuals    of ancillary services, consistency in         statute. Commenters further indicated
insured by managed care plans. Section      specialty referrals, waiting times and        that unless prior authorization
1867 of the Act imposes specific            quality assurance. A number of                requirements are abandoned or
obligations on Medicare-participating       emergency physicians commenting on            prohibited altogether, huge bills could
hospitals that offer emergency services     the proposed bulletin indicated that          result for patients whose care had not
with respect to individuals coming to       dual staffing would function to protect       been authorized in advance.
the hospital and seeking treatment of       the financial interests of managed care       Commenters also stated that the
possible emergency medical conditions.      organizations rather than provide the         ‘‘prudent layperson’’ standard does not
Specifically, the draft Special Advisory    highest quality of care to individuals;       sufficiently protect a hospital’s interest
Bulletin sought to address: (1) The         many hospitals believed that dual             in receiving payment for the emergency
obligations of hospitals to provide         staffing would add layers of bureaucracy      services provided.
appropriate medical screening               to the system thereby disrupting and             We were unable to resolve many of
examinations to all patients seeking        delaying patient care. Of course, there       the commenters’ concerns because we
emergency services and stabilizing          may be countervailing considerations          do not have the authority under the
treatment when necessary; (2) Some of       relating to the benefits of flexibility and   patient anti-dumping statute to mandate
the special concerns in the provision of    creativity in structuring health delivery     reimbursement for emergency services
emergency services to enrollees of          systems, and there is a lack of data to       or to regulate non-Medicare and non-
managed care plans; (3) The rules           support some assertions by those              Medicaid managed care plans. However,
governing Medicare and Medicaid             opposing dual staffing. For the Federal       we have amended the prior
managed care plans with respect to          Government to prohibit in advance, on         authorization section of the bulletin
prior authorization requirements and        a national level, arrangements which          slightly to make it absolutely clear that
payment for emergency services; and (4)     might increase access to health care          an emergency physician is free to phone
what types of practices would serve to      services would require some greater           a physician in a managed care plan at
promote hospital compliance with the        likelihood of risk or harm than we            any time for a medical consultation
patient anti-dumping statute when           currently foresee. (In this context, we       when it is in the best interest of the
managed care enrollees seek emergency       note that States are able to restrict or      patient. Further, we have clarified that
services.                                   prohibit dual staffing arrangements           once stabilizing treatment is under way,
   The proposed Special Advisory            within their borders.) It may or may not      a managed care plan may be contacted
Bulletin attempted to be consistent with    become evident that dual staffing             for payment authorization.
                    Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices                               61355

3. Use of Advance Beneficiary Notices         or she is entitled and which the hospital    deferral may have the opposite of the
(ABNs) or Other Financial                     is obligated to provide regardless of        intended result, since patients who are
Responsibility Forms                          ability to pay, and could cause              unable to determine their potential
   With regard to the use of ABNs,            unnecessary delay.                           financial liability may be discouraged
commenters indicated that Medicare               With respect to the use of financial      from staying at the hospital to receive an
                                              responsibility forms, we believe that        examination or treatment. As an
requires ABNs to be provided to
                                              many commenters mistakenly                   alternative, commenters recommended
beneficiaries if the hospital is to be
                                              interpreted the proposed bulletin as an      that hospital staff be permitted to
permitted to bill the beneficiary later for
                                              attempt to derail the use of reasonable      respond to patient inquiries with
a non-covered service, even for services
                                              hospital registration procedures that do     specific financial information so long as
provided in an emergency context.
                                              not conflict with the goals of the Patient   the hospital continues to offer, and
Thus, if a Medicare managed care
                                              Anti-Dumping Statute. We did not mean        encourages the patient to stay for, a
patient arrived at the hospital and the
                                              to give that impression. We are therefore    medical screening examination. In
ED physician was concerned that the
                                              clarifying this portion of the Special       addition, commenters were concerned
plan may not cover the service, the
                                              Advisory Bulletin consistent with the        that the absence of full and frank
physician must have the patient sign an       specific language set forth in the HCFA      disclosure between physicians and
ABN or else be precluded from billing         State Operations Manual, Interpretive        patients regarding treatment options,
the patient for the service if the plan       Guidelines of May 1998, regarding            insurance coverage and follow-up
does not pay. Several comments                registration processes permitted in the      treatment would inhibit the
indicated that many hospitals are using       ED, which typically include the              examination and treatment process.
ABNs for non-Medicare patients as well,       collection of demographic information,       These commenters recommended
even though these hospitals should be         insurance information, whom to contact       allowing conversations about financial
able to bill these patients for services in   in an emergency and other relevant           liability issues to take place between
any case. A number of commenters              information. Specifically, the               hospital staff and patients so long as
opposed making it a ‘‘best practice’’ for     Interpretive Guidelines indicate that a      such discussions do not delay screening
hospitals not to ask patients to complete     hospital ‘‘may continue to follow            and treatment.
financial responsibility forms upon           reasonable registration processes for           We have not substantially revised this
registration, indicating that it is           individuals presenting with an               section. We believe that it already
common practice that standard consent         emergency medical condition.’’               makes clear that any inquiry about
forms are signed at the time of               Reasonable registration processes            financial liability should be answered as
registration which include an agreement       should not unduly discourage                 fully as possible by a qualified
that the patient will pay for services not    individuals from remaining for further       individual. Alternatives suggested by
covered by insurance. Commenters              evaluation. Reasonable registration          the commenters would be acceptable if
expressed the view that as long as this       processes may include asking whether         such alternatives did not conflict with a
practice does not cause delay in              an individual is insured and, if so, what    minimum effort to defer discussions
screening and stabilization, it would be      that insurance is, as long as this inquiry   about financial liability issues until after
very inefficient for a hospital to have to    does not delay screening or treatment.       the provision of screening and the
engage in ‘‘split registration.’’                We are also clarifying that, while a      commencement of stabilizing treatment.
   It continues to be our view that a         reasonable registration process may go       This section does not suggest that a
hospital would violate the patient anti-      forward prior to screening for an            patient is not entitled to full disclosure,
dumping statute if it delayed a medical       individual who is not in an acute            only that the hospital should always
screening examination or necessary            emergency situation, it would be             convey to the patient that screening and
stabilizing treatment in order to prepare     impermissible for a hospital to              stabilization are its priorities regardless
an ABN and obtain a beneficiary               condition a screening examination or         of the individual’s insurance coverage
signature. The best practice would be         the commencement of necessary                or ability to pay and that the hospital
for a hospital not to give financial          stabilizing treatment on completion of a     should discuss, to the extent possible,
responsibility forms or notices to an         financial responsibility form.               the medical risks of leaving without a
individual, or otherwise attempt to                                                        medical screening exam and/or
obtain the individual’s agreement to pay      4. Inquiries Concerning Financial
                                              Liability for Emergency Services by the      stabilizing treatment.
for services before the individual’s
stabilizing treatment is under way. This      Individual                                   5. Voluntary Withdrawal
is because the circumstances                     With regard to a hospital’s handling of      Commenters also raised concerns
surrounding the need for such services,       patient inquiries regarding the patient’s    about the hospital’s obligation in the
and the individual’s limited information      obligation to pay for emergency              event of voluntary withdrawal by an
about his or her medical condition, may       services, we recommended in the              individual, and the proposed bulletin’s
not permit an individual to make a            proposed bulletin that such questions be     suggestion that a number of procedures
rational, informed consumer decision.         answered by qualified personnel. We          be followed and documented when a
   It normally is permissible to ask for      also recommended that hospital staff         patient elects to withdraw his or her
general registration information prior to     encourage a patient who believes that he     request for treatment. Commenters
performing an appropriate medical             or she may have an emergency medical         believed that the proposed procedures
screening examination. The hospital           condition to defer any further               do not make allowance for those times
may not, however, condition such a            discussions of financial responsibility      when a hospital is not aware of the
screening and further treatment upon          until after the provision of an              individual’s departure until after he or
the individual’s completion of a              appropriate medical screening                she has left the hospital. Commenters
financial responsibility form or              examination and the provision of             recommended that the steps set forth in
provision of a co-payment for any             stabilizing treatment if the patient’s       the draft bulletin should apply only
services. Such a practice could unduly        condition warrants it. Many                  when the hospital knows of the
deter the individual from remaining at        commenters disagreed with this               withdrawal, that is, when possible, and
the hospital to receive care to which he      recommendation, indicating that such a       that when a person leaves without
61356                Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices

telling hospital staff, a hospital be               • A hospital may not delay the            such services. However, our concern is
required to document the fact that a             provision of an appropriate medical          that such an inquiry may improperly or
patient simply left without notice and           screening examination or further             unduly influence patients to leave the
retain the log that shows that the person        medical examination and stabilizing          hospital without receiving an
had been there and what time the                 medical treatment in order to inquire        appropriate medical screening
hospital discovered that the patient had         about the individual’s method of             examination. This result would be
left. We have revised this section to            payment or insurance status.                 inconsistent with the goals of the anti-
some extent. However, it is our view                • Regulations implementing these          dumping statute and could leave the
that hospitals should be very concerned          statutory obligations are found at 42        hospital exposed to liability under the
about patients leaving without being             CFR part 489. The anti-dumping statute       statute.
screened. Since every patient who                is enforced jointly by the Health Care          Investigations of allegations of the
presents seeking emergency services is           Financing Administration (HCFA) and          anti-dumping statute violations across
entitled to a screening examination, a           the Office of Inspector General (OIG) of     the country have persuaded the OIG and
hospital could violate the patient anti-         the U.S. Department of Health and            HCFA that managed care patients may
dumping statute if it routinely keeps            Human Services (HHS).                        be at risk of being discharged or
patients waiting so long that they leave            • Sanctions that may be imposed by        transferred without receiving a medical
without being seen, particularly if the          HHS for violations of the anti-dumping       screening examination, largely because
hospital does not attempt to determine           statute include the termination of the       of the problems inherent in seeking
and document why individual patients             hospital’s provider agreement, and the       ‘‘prior authorization.’’ Hospitals
are leaving, and reiterate to them that          imposition of civil money penalties          sometimes are caught between the legal
the hospital is prepared to provide a            against both the hospital and the            obligations imposed under the anti-
medical screening if they stay.                  physician (including on-call physicians)     dumping statute and the terms of
                                                 responsible for examination, treatment,      agreements which they have with
   In accordance with our assessment of          or transfer of an individual. In addition,
the comments and issues raised, set                                                           managed care plans. For example, some
                                                 the anti-dumping statute provides for        managed care organizations, as a
forth below is the revised OIG/HCFA              the exclusion of such physician if the
Special Advisory Bulletin addressing                                                          condition of contracting with hospitals
                                                 violation is gross and flagrant or           to provide services to their enrollees,
the patient dumping statute.                     repeated.                                    have attempted to require such hospitals
Obligations of Hospitals To Render               Why is there a Special Concern About         to obtain prior authorization from the
Emergency Care to Enrollees of                   the Provision of Emergency Services to       plan before screening or treating an
Managed Care Plans                               Enrollees of Managed Care Plans?             enrollee in order to be eligible for
What are the Obligations of Medicare-                                                         reimbursement for services provided.
                                                   Many managed care plans require               The OIG’s and HCFA’s view of the
Participating Hospitals That Offer               their members to seek prior
Emergency Services to Individuals                                                             legal requirements of the anti-dumping
                                                 authorization for some medical services,     statute in this situation is as follows.
Seeking Such Services?                           including emergency services. (As            Notwithstanding the terms of any
  • The anti-dumping statute (section            explained below, a Medicare or               managed care agreements between plans
1867 of the Social Security Act; 42              Medicaid contracting Managed Care            and hospitals, the anti-dumping statute
U.S.C. 1395dd) sets forth the federally-         Organization is prohibited from              continues to govern the obligations of
mandated responsibilities of Medicare-           requiring its members to seek prior          hospitals to screen and provide
participating hospitals to individuals           authorization for emergency medical          stabilizing medical treatment to
with potential emergency medical                 services.) However, as noted above, the      individuals who come to the hospital
conditions.                                      anti-dumping statute prohibits a             seeking emergency services regardless of
                                                 hospital’s inquiry about a patient’s
  • Under the anti-dumping statute, a            method of payment or insurance status,
                                                                                              the individual’s ability to pay. While
hospital must provide to any person                                                           managed care plans have a financial
                                                 or use of such information, from             interest in controlling the kinds of
who comes seeking emergency services             delaying a screening examination or
an appropriate medical screening                                                              services for which they will pay, and
                                                 stabilizing medical treatment. It has        while they may have a legitimate
examination sufficient to determine              come to our attention that some
whether he or she has an emergency                                                            interest in deterring their enrollees from
                                                 hospitals routinely seek prior               over-utilizing emergency services, no
medical condition, as defined by statute.        authorization from a patient’s primary
When medically appropriate, ancillary                                                         contract between a hospital and a
                                                 care physician or from the plan when a       managed care plan can excuse the
services routinely available at the              managed care patient requests
hospital must be provided as part of the                                                      hospital from its anti-dumping statute
                                                 emergency services, since the failure to     obligations. Once a managed care
medical screening examination.                   obtain authorization may result in the
  • If the person is determined to have                                                       enrollee comes to a hospital that offers
                                                 plan refusing to pay for the emergency       emergency services, the hospital must
an emergency medical condition,                  services. In such circumstances, the         provide the services required under the
—The hospital is required to stabilize the       patient may be personally liable for the     anti-dumping statute without regard for
 medical condition of the individual, within     costs.                                       the patient’s insurance status or any
 the capabilities of the staff and facilities      A reasonable argument can be made
 available at the hospital, prior to discharge
                                                                                              prior authorization requirement of such
                                                 that patients (other than those arriving
 or transfer; or                                                                              insurance.1
                                                 in dire condition) should be informed
—If the patient’s medical condition cannot be    when they request emergency services           1 Separate and apart from the anti-dumping
 stabilized before a transfer requested by the   of their potential financial liability for
 patient (or responsible medical personnel                                                    statute, in accordance with sections 1857(g),
 determine that the medical benefits of a
                                                 services. Some would go further and          1876(i)(6), 1903(m)(5) and 1932(e) of the Social
                                                 argue that the hospital itself should seek   Security Act, the OIG (acting on behalf of the
 transfer outweigh the risks), the hospital is                                                Secretary) has the authority to impose intermediate
 required to follow very specific statutory      prior approval from the patient’s health     sanctions against Medicare and Medicaid
 requirements designed to facilitate a safe      plan for emergency services to preserve      contracting managed care plans that fail to provide
 transfer to another facility.                   the patient’s right to seek coverage for     medically necessary services, including emergency
                         Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices                                          61357

What About Arrangements Between                         determined, might be enhanced by dual          While we recognize that dual staffing
Hospitals and Managed Care Plans for                    staffing. However, some hospitals and        will add to a hospital’s burden to assure
‘‘Dual Staffing’’ of Emergency                          emergency physicians have asked us to        that it is not violating EMTALA, we do
Departments?                                            disallow dual staffing out of concern for    not believe the EMTALA statute makes
   Some managed care organizations                      logistical difficulties and the perception   dual staffing illegal per se. We expect
(MCOs) and hospitals have entered into,                 that separate cannot be equal in a           that practical experience with dually
or are considering entering into,                       bifurcated emergency department.             staffed emergency departments will
arrangements whereby the hospital                          If a hospital constructs two equally      reveal whether or not they can be
permits the MCO to station its own                      good emergency service ‘‘tracks,’’ each      maintained without violating EMTALA.
physicians in the hospital’s emergency                  adequately staffed and each with
                                                        equally good access to all of the medical    What Are the Rules Governing
department, separate from the hospital’s                                                             Medicare and Medicaid Managed Care
own emergency physician staff, for the                  capabilities of the hospital, such that
                                                        both MCO and non-MCO patients                Plans With Respect to Prior
purpose of screening and treating MCO
                                                        receive equal access to screening and        Authorization Requirements and
patients who request emergency
                                                        stabilizing medical treatment, then such     Payment for Emergency Services?
services. This kind of arrangement is
known as ‘‘dual staffing.’’                             an arrangement would seem to not
                                                        violate the requirements of the anti-           There are special requirements for
   Such arrangements can exist only                                                                  managed care plans that contract with
where they do not violate current law.                  dumping statute.
                                                           Absent such equivalency,                  Medicare and Medicaid to provide
Regardless of any contractual                                                                        services to beneficiaries of those
arrangement a hospital enters into to                   implementation of dual staffing raises
                                                        concerns under EMTALA. The                   programs. Congress has specified that
staff its emergency department, the                                                                  Medicare and Medicaid managed care
hospital remains responsible under                      following are potential violations:
                                                           • Where the emergency department          plans may not require prior
EMTALA to provide an appropriate                                                                     authorization for emergency services,
                                                        directs a hospital-owned and operated
medical screening examination to
                                                        ambulance differently in field care or       and must pay for such services, without
determine whether or not an emergency
                                                        facility destination depending on which      regard to whether the hospital providing
medical condition (EMC) exists. If an
                                                        members of a dual staff (that is, either     such services has a contractual
EMC exists, EMTALA further provides
                                                        MCO or non-MCO physicians or                 relationship with the plan. Under
that the hospital must treat and stabilize
                                                        practitioners) are either on the radio to    statutory amendments recently enacted
the medical condition, unless the
patient is transferred in accordance with               emergency medical services (EMS) or          in the Balanced Budget Act (BBA) of
the specific requirements of the statute.               are expected to see the patient.             1997 (Public Law 105–33) 2, Medicare
   Also, section 1867(h) of the Act                        • If the emergency department alert       and Medicaid managed care plans are
provides that a participating hospital, in              status affecting acceptance of EMS cases     prohibited from requiring prior
providing emergency medical care,                       differs depending on which ‘‘side’’          authorization for emergency services,
‘‘may not delay provision of an                         (MCO or non-MCO) is expected to see          including those that ‘‘are needed to
appropriate medical screening                           the patient.                                 evaluate or stabilize an emergency
                                                           • If either the MCO or non-MCO track      medical condition.’’ Moreover,
examination * * * or further medical
                                                        is understaffed or simply overcrowded,       Medicare and Medicaid managed care
examination and treatment * * * in
order to inquire about the individual’s                 and a patient in a particular track is       plans are required to pay for emergency
method of payment or insurance                          subjected to a delay in screening and        services provided to their enrollees. The
status.’’ A dual staffing system, based on              stabilizing treatment, even though a         obligation to pay for emergency services
method of payment or insurance status,                  physician in the alternative track was       under Medicare managed care contracts
which creates delays in screening or                    available to see the individual. Where       is based on a ‘‘prudent layperson’’
stabilization violates this prohibition.                there is no emergency department             standard, which means that the need for
Also, the hospital remains responsible                  policy or procedure, or custom or            emergency services should be
under the Medicare Conditions of                        practice, which requires cross-over          determined from a reasonable patient’s
Participation as well as any other                      coverage between the dual staffs as          perspective at the time of presentation
relevant patient protections and quality                required for patient care. (Delays in        of the symptoms.3
safeguards. Further, the hospital is                    screening or stabilization of patients on
bound by provisions that protect whistle                one track but not the other are delays in      2 See section 4001 of the BBA, which created

blowers who report violations of                        screening or stabilization based on the      section 1852(d) of the Act. Section 1852(d) covers
EMTALA in dual staffing situations.                     insurance status of the individual and       emergency services and prior authorization for
                                                        thus represent potential violations of       Medicare enrollees. Also, section 4704(a) of the
   Different points of view on dual                                                                  BBA created section 1932(b) of the Act, which
staffing exist in the health care                       EMTALA.)                                     contains Medicaid provisions covering emergency
community. It is believed by some that                     • If the hospital’s emergency             services and prior authorization.
dual staffing in emergency departments                  department quality oversight plan              3 With respect to Medicare, prior authorization

can facilitate the expeditious provision                differs between the two ‘‘sides’’ (MCO       requirements for Medicare MCO plans were already
                                                        and non-MCO) of the dually staffed ED.       explicitly prohibited by regulations before the
of services to MCO patients by                                                                       passage of the BBA for emergency services provided
physicians and other practitioners in                      • Where the protocols for transfer of     outside an HMO or competitive medical plan (42
their own health plans. MCO ability to                  unstable patients differ other than          CFR 417.414(c)(1)), and by implication for services
care for their patients after stabilization,            administratively, for example, (1) if the    provided within such a plan. Similarly, while the
                                                        substance of stability determination         BBA clarified and codified the ‘‘prudent layperson’’
or after the absence of an EMC is                                                                    standard, a variation of this standard has always
                                                        criteria between the two staffs are          been part of the Medicare policy for managed care
services, to enrollees where the failure adversely      different, or (2) when patients are          plans. Even prior to the BBA, Medicare and
affects (or has a substantial likelihood of adversely   unstable and are transferred routinely to    Medicaid managed care plans were required to
affecting) the enrollee. Medicare and Medicaid          different facilities that are not            reimburse for emergency services provided other
managed care plans that fail to comply with the                                                      than through the organization. See section
above provision are subject to civil money penalties
                                                        equivalent to each other in level of care    1876(c)(4)(B), 42 CFR 417.414(c)(1) for Medicare
of up to $25,000 for each denial of medically           or distance, and their destinations          and section 1903(m)(2)(A)(vii), 42 CFR 434.30(b)(2)
necessary services.                                     depend on their insurance status.            for Medicaid.
61358               Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices

What Practices Will Promote                  necessary stabilizing treatment is                       screening and further treatment upon
Compliance With the Anti-Dumping             underway. (We recognize that this                        the individual’s completion of a
Statute by Hospitals When Managed            guidance differs in part from that                       financial responsibility form or
Care Enrollees Seek Emergency                provided in the HCFA State Operations                    provision of a co-payment for any
Services?                                    Manual on Provider Certification                         services. Such a practice could unduly
   The OIG and HCFA are concerned            (Transmittal No. 2, May 1988,                            deter the individual from remaining at
that discussion by hospital personnel        Interpretive Guidelines—                                 the hospital to receive care to which he
with a patient regarding the possible        Responsibilities of Medicare                             or she is entitled and which the hospital
need for prior authorization, or his or      Participating Hospitals in Emergency                     is obligated to provide regardless of
her potential financial liability for        Cases, Data Tag No. A406, p. V–20),
                                                                                                      ability to pay, and could cause
medical services provided by a hospital      which states that ‘‘it is not appropriate
                                                                                                      unnecessary delay. In accordance with
that offers emergency services, could        for a hospital to request or a health plan
                                             to require prior authorization before a                  the HCFA State Operations Manual,
unduly influence patients to leave the                                                                Interpretative Guidelines, V–27 (May
                                             patient has received a medical screening
emergency department without                                                                          1998), a hospital may continue to follow
                                             exam to determine the presence or
receiving an appropriate medical                                                                      reasonable registration processes for
                                             absence of an emergency medical
screening examination or any necessary                                                                individuals presenting for evaluation
                                             condition or until an emergency
stabilizing treatment. Without also                                                                   and treatment of a medical condition.
                                             medical condition has been stabilized.’’
informing the patient of his or her rights                                                            Reasonable registration processes may
                                             We will revise the State Operations
to a medical screening examination and                                                                include asking whether an individual is
                                             Manual to ensure that it conforms to the
to stabilizing medical treatment if the                                                               insured and, if so, what that insurance
                                             guidance provided in this bulletin) We
patient’s condition warrants it and the                                                               is, as long as this inquiry does not delay
                                             wish to emphasize that an emergency
medical risks of leaving, a discussion                                                                screening or treatment. However,
                                             physician is not precluded from
about insurance, ability to pay and                                                                   reasonable registration processes should
                                             contacting the patient’s personal
seeking prior authorization may impede
                                             physician at any time to seek advice                     not unduly discourage patients from
a hospital’s compliance with its
                                             regarding the patient’s medical history                  remaining for further evaluation.
obligations under the anti-dumping
                                             and needs that may be relevant to the                       • Qualified Medical Personnel Must
statute. Discussions initiated by a
                                             medical screening and treatment of the                   Perform Medical Screening
hospital staff member with a patient
                                             patient, as long as this consultation does               Examinations and Physicians Must
regarding potential prior authorization
                                             not inappropriately delay such                           Authorize Transfers
requirements and their financial
                                             screening and stabilization.4
consequences that have the effect of            • Use of Advance Beneficiary Notices                     A hospital should ensure that either a
delaying a medical screening are per se      and other Financial Responsibility                       physician or other qualified medical
violations of the anti-dumping statute.      Forms                                                    personnel (that is, hospital staff
Moreover, the OIG and HCFA believe              A hospital would violate the patient                  approved by the hospital’s governing
that in the absence of an initial            anti-dumping statute if it delayed a                     body to perform certain medical
screening, the decision of a managed         medical screening examination or                         functions) provides an appropriate
care plan regarding the need for             necessary stabilizing treatment in order                 medical screening examination to all
treatment is likely to be ill-informed.      to prepare an ABN and obtain a                           individuals seeking emergency services.
Patients are entitled to receive a medical   beneficiary signature. The best practice                 Depending upon the individual’s
screening examination and stabilizing        would be for a hospital not to give                      presenting symptoms, this screening
medical treatment under the anti-            financial responsibility forms or notices                examination may range from a relatively
dumping statute regardless of a              to an individual, or otherwise attempt to
hospital’s contract with a health plan                                                                simple examination to a complex one
                                             obtain the individual’s agreement to pay                 which requires substantial use of
that requires prior authorization.           for services before the individual is
Accordingly, the OIG and HCFA suggest                                                                 ancillary services available at the
                                             stabilized. This is because the                          hospital and on-call physicians. If it is
the following practices to minimize the      circumstances surrounding the need for
likelihood that a hospital will violate                                                               determined that the individual has an
                                             such services, and the individual’s                      emergency medical condition and that
the statute:                                 limited information about his or her
   • No Prior Authorization Before           medical condition, may not permit an
                                                                                                      the individual requires a transfer, only
Screening or Commencing Stabilizing                                                                   a physician (or, if a physician is not
                                             individual to make a rational, informed
Treatment                                                                                             physically present in the emergency
                                             consumer decision. It normally is
   It is not appropriate for a hospital to                                                            department at the time, a qualified
                                             permissible to ask for general
seek, or direct a patient to seek,                                                                    medical person in consultation with a
                                             registration information prior to
authorization to provide screening or                                                                 physician in accordance with
                                             performing an appropriate medical
stabilizing services to an individual                                                                 regulations at 42 CFR 489.24(d)(1)(ii)(C))
                                             screening examination. The hospital
from the individual’s health plan or                                                                  may authorize such a transfer.
                                             may not, however, condition such a
insurance company until after the                                                                        • When a Patient Inquires About
hospital has provided (1) an appropriate        4 If, when contacted, a managed care physician        Financial Liability for Emergency
medical screening examination to             requests that the patient be transferred, the hospital   Services
determine the presence or absence of an      must still conclude the medical screening
emergency medical condition, and (2)         examination and provide any treatment necessary             If a patient inquires about his or her
                                             to stabilize the patient prior to transfer, or in the    obligation to pay for emergency
any further medical examination and          case of an unstable patient, provide an appropriate
treatment necessary to commence              transfer. A hospital may only transfer an unstable       services, such an inquiry should be
stabilization of an emergency medical        patient at the request of the managed care physician     answered by a staff member who has
condition. The hospital may seek             when either a physician at the hospital certifies that   been well trained to provide
                                             the medical benefits of transfer outweigh the            information regarding potential
authorization for payment for all            increased risk, or when the patient requests the
services after providing a medical           transfer in writing after being informed of the          financial liability. This staff member
screening examination and once               hospital’s obligations and the risks of transfer.        also should be knowledgeable about the
                   Federal Register / Vol. 64, No. 217 / Wednesday, November 10, 1999 / Notices                           61359

hospital’s anti-dumping statute               Dated: November 4, 1999.                    interested in licensing the inventions
obligations and should clearly inform       June Gibbs Brown,                             will be required to submit an
the patient that, notwithstanding the       Inspector General, Office of Inspector        ‘‘Application for License to Public
patient’s ability to pay, the hospital      General.                                      Health Service Inventions’’.
stands ready and willing to provide a         Dated: November 3, 1999.
                                                                                             Inquiries about the CRADA
medical screening examination and                                                         opportunity should be addressed to
                                            Michael M. Hash,
stabilizing treatment, if necessary.                                                      Michael R. Mowatt, Ph.D., Technology
                                            Deputy Administrator, Health Care Financing
Hospital staff should encourage any                                                       Development Manager, Office of
                                            Administration.
patient who believes that he or she may                                                   Technology Development, NIAID,
                                            [FR Doc. 99–29390 Filed 11–9–99; 8:45 am]
have an emergency medical condition to                                                    Building 31 Room 3B62, 31 Center Drive
                                            BILLING CODE 4150–04–P
remain for the medical screening                                                          MSC 2137, Bethesda, MD 20892–2137,
examination and any necessary                                                             Telephone: (301) 435–8618, Facsimile:
                                                                                          (301) 402–7123; Email:
stabilizing treatment. Staff should also    DEPARTMENT OF HEALTH AND
                                                                                          mmowatt@nih.gov. Respondents
encourage the patient to defer further      HUMAN SERVICES
                                                                                          interested in the CRADA opportunity
discussion of financial responsibility                                                    should be aware that it might be
issues, if possible, until after the        National Institutes of Health
                                                                                          necessary to secure a license to the
medical screening has been performed.       Licensing Opportunity and/or                  above-mentioned patent rights in order
If the patient chooses to withdraw his or   Cooperative Research and                      to commercialize products arising from
her request for examination or              Development Agreement (‘‘CRADA’’)             a CRADA.
treatment, a staff member with              Opportunity; Certain Live Attenuated          SUPPLEMENTARY INFORMATION: The
appropriate medical training should         Respiratory Syncytial Viruses (RSV)           inventions described below are owned
discuss the medical issues related to a     and Parainfluenza Viruses (PIV) for           by an agency of the U.S. Government
‘‘voluntary withdrawal.’’                   Use as Human Vaccines                         and are available for licensing—in
   • Voluntary Withdrawal                   AGENCY: National Institutes of Health,        accordance with 35 U.S.C. 207 and 37
   If an individual chooses to withdraw     Public Health Service, DHHS.                  CFR part 404 to achieve expeditious
his or her request for examination or       ACTION: Notice.
                                                                                          commercialization of results of
treatment at the presenting hospital, and                                                 federally-funded research and
if the hospital is aware that the           SUMMARY:    The National Institutes of        development—and/or further
                                            Health (NIH) is seeking Licensee(s) and/      development under one or more
individual intends to leave prior to the
                                            or a commercial collaborator(s) to            CRADAs in the clinically important
screening examination, a hospital
                                            further develop, test, and commercialize      applications described below.
should take the following steps: (1)        as live attenuated vaccines certain              Human Respiratory Syncytial Viruses
Offer the individual further medical        recombinant RSV and PIV strains and           (HRSV), subgroups A and B (HRSV–A
examination and treatment within the        associated intellectual property              and HRSV–B, respectively), are the most
staff and facilities available at the       developed in the Laboratory of                common cause of serious respiratory
hospital as may be required to identify     Infectious Diseases (LID), Division of        tract infection in children and infants
and stabilize an emergency medical          Intramural Research, National Institute       less than one year of age. RSV is
condition; (2) Inform the individual of     of Allergy and Infectious Diseases            responsible for more than 20% of all
the benefits of such examination and        (NIAID).                                      pediatric hospital admissions due to
treatment, and of the risks of              DATES: There is no date by which              respiratory tract disease, and in the US
withdrawal prior to receiving such          license applications must be received.        is the cause of 91,000 hospitalizations
examination and treatment; and (3) Take     Respondents who wish to be considered         and 4,500 deaths. No licensed vaccine is
all reasonable steps to secure the          for the CRADA opportunity must submit         available to prevent disease by these
individual’s written informed consent to    a Capability Statement (described below       viruses.
refuse such examination and treatment.      in SUPPLEMENTARY INFORMATION) to the             Attenuated RSV strains for intranasal
The medical record should contain a         NIAID. Only written Capability                administration are the most promising
description of risks discussed and of the   Statements received by the NIAID on or        candidate vaccines because they are
examination, treatment, or both, if         before December 27, 1999 for                  efficacious even in the presence of
applicable, that was refused. If an         consideration. Capability Statements          passively transferred antibodies, the
individual leaves without notifying         should be forwarded to Michael R.             very situation found in the target
hospital personnel, the hospital should,    Mowatt, Ph.D. at the address specified        population of infants with maternally
                                            below.                                        derived anti-HRSV antibodies. Designed
at a minimum, document the fact that
the person had been there, what time        FOR FURTHER INFORMATION CONTACT:              mutations can be introduced into the
the hospital discovered that the patient    Inquiries about these licensing               RSV genome or antigenome utilizing
                                            opportunities should be addressed to          cDNA technology as a means of
had left, and should retain all triage
                                            Robert Benson, Ph.D., Patent Advisor,         engineering suitably attenuated RSV
notes and additional records, if any.
                                            Office of Technology Transfer, National       strains. See Collins et al., Proc. Nat.
However, the burden rests with the          Institutes of Health, 6011 Executive          Acad. Sci. USA 92 11563–11567, 1995,
hospital to show that it has taken          Boulevard, Suite 325, Rockville,              and PCT/US96/15524, ‘‘Production of
appropriate steps to discourage an          Maryland 20852–3804, Telephone: (301)         Infectious Respiratory Syncytial Virus
individual from leaving the hospital        496–7056 ext. 267; Facsimile: (301)           From Cloned Nucleotide Sequences’’,
without evaluation.                         402–0220; Email: rb20m@nih.gov.               which is available from NIH for
                                            Information about Patent Applications         licensing nonexclusively.
                                            and pertinent information not yet                Human Parainfluenza Viruses (HPIV),
                                            publicly described can be obtained            serotypes 1, 2, and 3 (HPIVs, HPIV2,
                                            under the terms of a Confidential             and HPIV1, respectively), are in
                                            Disclosure Agreement. Respondents             aggregate the second most common
